<html>
<title> - [H.A.S.C. No. 111-106] AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 2</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-106] 

      AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 2 

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 5, 2009

                                     
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-057 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                                     
  













               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
SUSAN A. DAVIS, California           MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JOE SESTAK, Pennsylvania             CATHY McMORRIS RODGERS, Washington
GLENN NYE, Virginia                  DOUG LAMBORN, Colorado
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
                 Drew Walter, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, November 5, 2009, Afghanistan and Iraq: Perspectives on 
  U.S. Strategy, Part 2..........................................     1

Appendix:

Thursday, November 5, 2009.......................................    37
                              ----------                              

                       THURSDAY, NOVEMBER 5, 2009
      AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 2
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     1

                               WITNESSES

Eaton, Maj. Gen. Paul D., USA (Ret.), Senior Advisor, National 
  Security Network...............................................     2
Fair, Dr. C. Christine, Assistant Professor, Center for Peace and 
  Security Studies, Edmund A. Walsh School of Foreign Service, 
  Georgetown University..........................................     4
Khan, Dr. Muqtedar, Associate Professor, Department of Political 
  Science and International Relations, University of Delaware....     5
Strmecki, Dr. Marin, Senior Vice President and Director of 
  Programs, Smith Richardson Foundation..........................     8

                                APPENDIX

Prepared Statements:

    Eaton, Maj. Gen. Paul D......................................    44
    Fair, Dr. C. Christine.......................................    52
    Khan, Dr. Muqtedar...........................................    69
    Strmecki, Dr. Marin..........................................    77
    Wittman, Hon. Rob............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
      AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 2

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                        Washington, DC, Thursday, November 5, 2009.
    The subcommittee met, pursuant to call, at 10:32 a.m., in 
room 2226, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. We appreciate 
you all being here today. I am interested in hearing what you 
all have to say. We will get to the discussion. So I am going 
to forego any opening statement.
    You may notice we get a little musical chairs going on 
today. We are fortunate to have some members from the full 
committee that are not on the subcommittee that want to join 
in.
    If everybody shows up at the same time who is a member of 
the committee, we will have them--some members sitting on the 
table with you all over there, but we will--we are fortunate to 
have this level of interest amongst other members. So Mr. 
Coffman and Mr. Hunter are with us today. We appreciate that.
    Mr. Wittman, any opening comments you want to make?

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Not at this time, Mr. Chairman. I would just 
ask unanimous consent to enter my comments into the record.
    Dr. Snyder. Sure. Without objection.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 41.]
    Dr. Snyder. And the opening statements of the witnesses 
will also be made a part of the record. And I need to get the--
here.
    Our witnesses today are Major General Paul Eaton, retired 
U.S. Army, Senior Advisor for the National Security Network; 
Dr. C. Christine Fair, Assistant Professor at the Center for 
Peace and Security Studies, the Walsh School of Foreign 
Service, Georgetown University; Professor Muqtedar Khan, 
Associate Professor and Director of the Islamic Studies 
Program, University of Delaware; and Dr.--is it Marin?
    Dr. Strmecki. Marin.
    Dr. Snyder [continuing]. Marin Strmecki, Senior Vice 
President and Director of Programs, the Smith Richardson 
Foundation.
    We will make all of your written statements a part of the 
record. We will turn the clock on for five minutes. You will 
see the red light go on here at five minutes. Do not look on 
that as a hard stop. If there are things that you want to tell 
us beyond that, feel free to do so. I know members will have 
plenty of questions.
    So we will begin with you, General Eaton. You are 
recognized.

   STATEMENT OF MAJ. GEN. PAUL D. EATON, USA (RET.), SENIOR 
               ADVISOR, NATIONAL SECURITY NETWORK

    General Eaton. Thank you, Mr. Chairman. Chairman Snyder, 
Ranking Member Wittman, members of the subcommittee, ladies and 
gentlemen, thank you for the invitation to join you today to 
discuss a topic that is at once very important to the Nation 
and is very personal to the thousands of families who send 
their soldiers and Marines to prosecute the Nation's wars.
    To put it into context, over 200,000 American families wake 
up and look outside to see if there is a government vehicle out 
to give them their worst news possible. It happens every day. 
So I support this Administration's prudent review of our 
options in Afghanistan.
    Now, I am not going to read the entire statement submitted, 
but I will highlight a few points.
    Andrew Bacevich, a retired Army colonel, now professor of 
international relations at Boston University and author of The 
Limits of Power, wrote for ``Harper's'' magazine this month, 
``Among Democrats and Republicans alike, with few exceptions, 
Afghanistan's importance is simply assumed, much in the way 50 
years ago otherwise intelligent people simply assumed that the 
United States had a vital interest in ensuring the survival of 
South Vietnam. Today, as then, the assumption does not stand up 
to even casual scrutiny.''
    I don't buy Mr. Bacevich's comments exactly, but it 
certainly tempers the argument. So before we begin the debate 
about numbers of soldiers and Marines in Afghanistan and 
subsequent impact on mission there and our mission in Iraq, it 
would be helpful to answer the questions, ``Why do we continue 
operations in Afghanistan,'' or, ``What do we want Afghanistan 
to look like in so many years,'' or, ``What differentiates 
Afghanistan from Yemen, or Somalia, or Sudan, or any other 
failed or failing states capable of harboring al Qaeda?''
    So the mission statement will inform the commander's intent 
from which the real campaign will be known. If you don't know 
where you are going, any road will take you there.
    So the primary rationale I see for continuance in 
Afghanistan is 60 or so nuclear weapons in Pakistan, the link 
to regional stability and the extremist groups operating there.
    There is an argument, unfortunately hearkening back to 
Vietnam-era domino theory, that as goes Afghanistan and its 
internal fight against extremists, so can go Pakistan. But I 
will leave the answer to why to the experts.
    Now, from a military perspective, the--we are not going to 
get to the 600,000-plus that we need by our own math to execute 
counterinsurgency operations. So by definition, whatever number 
soldier option the President elects to pursue, we are going to 
have a kind of COIN--counterinsurgency operation--lite. It will 
probably not be rural. It will be urban.
    And it will be along the lines of what my--one of my 
smarter classmates, Andrew Krepinevich, talks about, the oil 
spot approach, where you establish a zone of security and 
derive from that a zone of prosperity, which will ultimately 
spread out and include greater parts of the country.
    Now, reviewing the components of U.S. projection power, I 
am going to insist that there are three components, not just 
the military. As I told then-candidate Obama when I had an 
opportunity to meet with him more than a year ago and he asked 
me what the Army wanted, I responded, ``Senator, we want your 
Secretary of Agriculture to be at least as interested in the 
outcome in Afghanistan and Iraq as is your Secretary of 
Defense.''
    The United States is in serious need of a review and 
revision of its national security architecture. We prosecuted 
the Cold War with the National Security Act of 1947 and did so 
brilliantly, but the world is very different now.
    Every colonel who goes to the Army War College gets the 
components of national power--economic, military, diplomatic, 
political. And I am not going to go through the list of 
questions that--that I proposed that you ask the Administration 
for the military component, but I would like to emphasize the 
so-called civilian surge that we are embarking upon.
    It is not illustrated well enough. I don't understand, from 
what I can find out, what the components of the civilian surge 
are. I don't know who is in charge of the economic program. And 
as a citizen, I think it prudent that we find that out. So I 
expect that we be informed relatively soon on what the civilian 
surge looks like, what the economic program is going to be, who 
is in charge.
    From a diplomatic perspective, there is an internal--a 
micro-diplomatic program, and an external--a macro-diplomatic 
program, internal to develop the--from district to province 
to--to national and alignment with political operators inside 
the country to shoulder the counterinsurgency warfare program, 
and then there is the macro, our allies in Europe and the 
surrounding countries on what they will do to assure and to 
assist us in establishing the security that we need to in 
Afghanistan.
    So this preoccupation with the number of soldiers is 
secondary, I believe, to the greater issue of economic 
engagement and political engagement.
    And I will end with a quote from Richard Clarke in his book 
``Your Government Failed You.'' ``If we stop denigrating 
government and using its instruments as partisan punching bags, 
if we work in a bipartisan way to rebuild our institutions of 
national security, your government will fail you much less. It 
could even make you proud once more.''
    Thank you, Mr. Chairman.
    [The prepared statement of General Eaton can be found in 
the Appendix on page 44.]
    Dr. Snyder. Thank you, General Eaton.
    Dr. Fair.

STATEMENT OF DR. C. CHRISTINE FAIR, ASSISTANT PROFESSOR, CENTER 
   FOR PEACE AND SECURITY STUDIES, EDMUND A. WALSH SCHOOL OF 
             FOREIGN SERVICE, GEORGETOWN UNIVERSITY

    Dr. Fair. Thank you, Chairman Snyder and Ranking Member 
Wittman as well as your esteemed colleagues for the opportunity 
to speak today.
    I have actually been asked to address how U.S. strategy and 
objectives in Afghanistan affect the U.S.'s ability to 
prosecute its interests in Pakistan. The Afghanistan-Pakistan 
(Af-Pak) strategy suggests that to stabilize Afghanistan you 
must stabilize Pakistan.
    I argue that this formulation critically inverts the 
primacy of U.S. interests. Pakistan is the epicenter of the 
most intense U.S. national security concerns, including 
regional, conventional and nuclear stability, terrorism and 
nuclear proliferation.
    I submit that focusing resources upon Pakistan will greatly 
enable a pacification of Afghanistan. Karzai's electoral 
malfeasance and continuance as president has prompted 
reflection about the next step forward in Afghanistan.
    On the one hand, some argue for a more robust 
counterinsurgency strategy to be resourced with additional 
troops, and other in financial resources, while others argue 
for a separation of the counterinsurgency effort with greater 
focus upon the counterterrorism effort.
    Proponents of increasing military efforts in Afghanistan 
argue that failure in Afghanistan will spell out grave outcomes 
in Pakistan. This formulation reverses cause and effect.
    Pakistan's behavior and policies in many ways determine the 
events and outcomes in Afghanistan as well as the rest of South 
Asia, in part because of its continued support of the Afghan 
Taliban.
    This year, Pakistan commenced so-called anti-Taliban 
military operations. This terminology confuses, because it 
suggests that Pakistan has turned its guns on the Afghan 
Taliban when, in fact, the Afghan Taliban operate freely there. 
Pakistan is, in fact, limiting its war on terrorism to those 
elements that undermine the Pakistani state, and those elements 
are not comprehensively the enemies of the United States. They 
are specifically the enemies of Pakistan.
    Pakistan, with some justification, blames the U.S. presence 
in the region for the country's degraded internal security, 
rather than viewing their insecurity specifically as blow-back 
from their country's own dangerous policies.
    While militants have targeted the Pakistani state since 
2004, in part because of its cooperation with the United States 
in the war on terrorism, Pakistan has used militants in India 
since 1947 and in Afghanistan since the early 1970s. 
Unfortunately, the Pakistani Taliban have connections with 
these longstanding proxies and this fundamentally limits 
Pakistan's efforts to defeat their own enemies decisively. 
Worse, these proxies have ties to the Afghan Taliban and al 
Qaeda.
    Yet having received $13 billion, if not more, from the 
United States, to participate in the war on terrorism, Pakistan 
continues to support the Afghan Taliban. This means that 
Pakistan is undermining the very war on terrorism that it has 
received handsome reward allegedly to support.
    Success in Afghanistan requires effective partners in Kabul 
as well as Islamabad, yet such partners are unlikely to 
materialize any time soon. I recommend a realistic 
reformulation of U.S. interests in Afghanistan and Pakistan to 
identify Pakistan as the most critical locus of U.S. national 
security interests. Washington needs to ask how it can protect 
its regional interests, perhaps without decisively defeating 
the Taliban in the near term, while compelling Pakistan to stop 
interfering in Afghanistan over the long term.
    This may require greater focus upon counterterrorism rather 
than counterinsurgency operations in Afghanistan. This would 
allow the U.S. over time to decrease its kinetic footprint in 
Afghanistan and lessen its logistical dependence upon Pakistan 
which seriously degrades Washington's options to be harsher 
with Pakistan.
    To stabilize the region, Washington needs to create space 
to compel Pakistan to cease supporting all militant groups 
operating on and from its territory over a reasonable time 
frame. And to state the obvious, this includes coercing or 
compelling Pakistan to abandon its continued support of the 
Afghan Taliban.
    Thank you.
    [The prepared statement of Dr. Fair can be found in the 
Appendix on page 52.]
    Dr. Snyder. Thank you, Dr. Fair.
    Dr. Khan.

STATEMENT OF DR. MUQTEDAR KHAN, ASSOCIATE PROFESSOR, DEPARTMENT 
OF POLITICAL SCIENCE AND INTERNATIONAL RELATIONS, UNIVERSITY OF 
                            DELAWARE

    Dr. Khan. Well, I want to thank members of the committee 
for inviting me to testify.
    I want to begin by discussing the impact of the war in Iraq 
on our ability to prosecute the war in Afghanistan. I believe 
that the U.S. strategy in Afghanistan was fatally undermined by 
the decision of the previous Administration to wage an 
unnecessary and bigger war in Iraq, even before our goals and 
objectives were realized in Afghanistan.
    The war in Iraq has exhausted our resources. It has cost 
$700 billion in direct costs, led to 4,355 American military 
fatalities, nearly 250 civilian fatalities, 31,000 wounded, 
caused a global pandemic of anti-Americanism, and undermined 
the legal and moral underpinnings of the global order that the 
United States had constructed and nourished since 1945.
    For many Iraqis, too, it has been proven to be devastating, 
causing hundreds of thousands of deaths and refugees. It also 
diverted resources and focus away from Afghanistan.
    Most importantly, the unnecessary war in Iraq has sapped 
the American resolve to wage long wars that involve 
insurgencies and nation-building. The war in Iraq has made it 
very difficult for our President to go to the American people 
and say that we must.
    We need to stay in Afghanistan for a long time. We need to 
spend billions of dollars and perhaps lose many more American 
lives in order to finish in Afghanistan what we started eight 
years ago.
    I have bad news for this committee. I believe that the U.S. 
at the moment does not have the political will nor the public 
understanding and commitment to do what is necessary in 
Afghanistan.
    At the moment the public support for the war in Afghanistan 
stands at 40 percent. With the current spike in casualties, the 
growing political crisis that started with the malpractices in 
the presidential elections, I suspect public support will 
decline further. It will become very difficult for both the 
White House and the Congress to do what is necessary.
    What is necessary? To win at all in Afghanistan, the United 
States will need to control the Af-Pak border and completely 
eliminate the ability of the Taliban to cross borders when 
things get tough on either side, undermine their ability to 
recruit and fundraise, win the hearts and minds of the Afghan 
people to such an extent that they are motivated to stand up 
with the United States against the Taliban and take risks to 
realize the dream of a democratic Afghanistan.
    We also hope to create significant positive change on the 
ground, that progress can seduce the Afghans away from war and 
hate. But to realize these objectives with minimum civilian 
casualties the U.S. will need more troops, more civilians and 
far more commitment to Afghanistan.
    We will have to convey the intent, the resolve, that the 
United States is there to do the right thing and to do it 
right. Half measures will cause more damage and make it 
impossible for the U.S. to achieve even its minimal goals.
    The stated goal of the Bush Administration for invading 
Afghanistan was to capture or kill Osama bin Laden, destroy al 
Qaeda, and make sure that Afghanistan was no more a safe haven 
for terrorists.
    We think these goals have been partially achieved. There is 
no al Qaeda in Afghanistan. Al Qaeda is everywhere else but 
Afghanistan. It is in Pakistan. It is in Yemen. It is in 
Somalia. And it is in Iraq. But not in Afghanistan.
    Bin Laden is still at large. The Taliban have--sorry, al 
Qaeda has succeeded in reconstituting itself in different 
forms, in different locales and using different modus operandi.
    Bin Laden is still not in our custody. Anti-Americanism and 
overall discontent with political realities will have to 
decrease significantly before the demand for organizations such 
as al Qaeda diminishes in the Muslim world.
    To make matters worse, the Taliban, in a hydra-like 
fashion, have reproduced themselves. Now we have two Talibans: 
Taliban in Afghanistan and Taliban in Pakistan. And both of 
them are operating brazenly either side of the border.
    They have attacked the Indian embassy. They have attacked 
the North Atlantic Treaty Organization (NATO). They have 
attacked U.S. bases in Kamdesh, for example. They have killed 
civilians and soldiers on both sides of the border. They have 
grown four times in size, from roughly 7,000 to 25,000. But the 
number of attacks that they make have grown a hundred times.
    The British intelligence reports that now the British army 
fights the Taliban seven times a day. This is exponential 
growth. If you look at the casualty figures of the U.S. Army 
and allies in the region, it clearly suggests that it is 
rapidly approaching the numbers that we saw in the last two or 
three years in Iraq.
    What are our options in Afghanistan?
    The first option is to accept the recommendations of 
General Stanley McChrystal and send a second surge of 40,000 to 
100,000 troops and civilians to Afghanistan to escalate both 
war and nation-building activities simultaneously. We should 
remember that this would be the second surge, again, under the 
Administration of President Obama. We have already sent 30,000 
additional troops a few months ago.
    The second option is to scale down U.S. strategy from 
counterinsurgency and counterterrorism to counterterrorism 
only, meaning forget Afghanistan and the Taliban and focus on 
al Qaeda, wherever they are.
    The third option is to partially answer General 
McChrystal's request, which means that we give him half or one-
third of what he is asking for. In my humble opinion, the third 
option is not worthy of consideration at all.
    General McChrystal's strategy does not have a global 
perspective to it. Anti-Americanism in Afghanistan is not 
contingent on what the U.S. does in Afghanistan alone. It is 
affected by what the U.S. does in Palestine, what the U.S. does 
in Iraq, what the U.S. does in Pakistan and other parts of the 
Muslim world.
    It is conceivable that the U.S. could invest a lot of blood 
and treasure in Afghanistan while still lose if it fails in 
other theaters in the Muslim world. So we could spend billions 
of dollars in Afghanistan developing it, materially developing 
it successfully, but if you do not pull off the peace process 
in the Arab-Israeli conflict, then there will be anti-
Americanism in Afghanistan still.
    Additionally, the U.S. military presence itself is a 
provocation in itself. Many Afghans will support and fight with 
the Taliban as long as there are foreign troops occupying their 
land. A major surge will inevitably cause many civilian deaths 
which incite hatred against the U.S., garner support for 
extremists, and generate more recruits for them.
    I like the second option with additional caveats. The U.S. 
must fight only those who directly threaten U.S. interests and 
security. Global wars have serious costs and consequences that 
even a superpower cannot afford. A poor country like ours that 
agonizes for months over whether we can pay for the health care 
of poor and underprivileged Americans cannot afford to fight 
wars indefinitely which require unlimited resources.
    Al Qaeda has brought devastation and violence to the very 
societies that have hosted it. For the past two years, Pakistan 
has been the biggest victim of terrorism by al Qaeda and 
Taliban. If some Pakistanis, due to misguided and unwise anti-
Americanism, choose to support them, then they should be left 
to deal with the consequences. We can pray for them.
    We should not embark on imperial adventures without strong 
commitment by those we seek to rescue. If the Afghans want to 
help to fight the Taliban, they must prove their resolve by 
first standing up to them. If the Pakistanis want to help to 
fight their extremists, then they, too, should show the 
necessary commitment and stop running with the hare and hunting 
with the hound at the same time.
    In the age of unmanned drones, I think long-distance 
relationships are not a bad idea. If the U.S. can make its war 
against its enemies invisible, it will have a better chance of 
winning.
    Simultaneously, you must continue to maintain wide-ranging 
dialogue with the Muslim world and seriously seek to resolve 
key issues that undermine U.S.-Muslim relations.
    Any and every diplomatic blow against anti-Americanism is 
worth many military surges that inevitably kill civilians and 
undermine the main goal: to improve U.S. security through 
better U.S.-Muslim relations.
    Thank you for considering my thoughts.
    [The prepared statement of Dr. Khan can be found in the 
Appendix on page 69.]
    Dr. Snyder. Thank you, Dr. Khan.
    Dr. Strmecki.

  STATEMENT OF DR. MARIN STRMECKI, SENIOR VICE PRESIDENT AND 
       DIRECTOR OF PROGRAMS, SMITH RICHARDSON FOUNDATION

    Dr. Strmecki. Thank you, Mr. Chairman. I welcome the 
opportunity to discuss U.S. strategy in Afghanistan and how it 
relates to the situation in Iraq.
    The challenges we face in Afghanistan today are largely a 
product----
    Dr. Snyder. Is your microphone on, Dr. Strmecki?
    Dr. Strmecki. The light is on.
    Dr. Snyder. Well, that is a good sign. You must have much 
less volume than Dr. Khan did. But go ahead.
    Dr. Strmecki. Okay. The challenges we face today in 
Afghanistan are largely the product of an escalation by the 
enemy that began in late 2005 and then dramatically increased 
in the subsequent years until today.
    It is difficult to remember now, but there were several 
months back in late 2004 and early 2005 where there were 
virtually no security incidents for several months in 
Afghanistan. The contrast between the violence that attended 
the 2004 presidential election, which was minimal at best, and 
the 2009 election, which was an all-time peak, is dramatic.
    Now, for a variety of reasons, the Afghan government and 
the United States and NATO did not adequately respond to this 
escalation. Afghanistan was an economy of force theater vis-a-
vis the situation in Iraq. NATO partners were unwilling to send 
additional forces. There was a reluctance on the part of 
supporters of Afghanistan to massively increase Afghan national 
security forces, though some steps were taken both in 2006 and 
2008. And President Karzai did not do enough to improve 
governance though, again, he did some measures such as 
appointing a better minister of interior.
    The result of this response and the escalation by the enemy 
is that security conditions deteriorated, particularly in 
southern Afghanistan. And this is the situation that President 
Obama inherited.
    Now I would like to make six quick points about his 
response.
    In its white paper on Afghanistan and Pakistan issued in 
March 2009, I believe the Obama Administration demonstrated a 
correct understanding of the problem. There is a single enemy 
that is located in western Pakistan. It is a syndicate of 
extremist and terrorist groups that includes al Qaeda, but it 
is not limited to al Qaeda, and that receives support from 
certain elements in Pakistan.
    That is the enemy that has to be defeated. But the enemy's 
threat radiates in three directions. It comes at us as a 
transnational terrorist threat. It crosses the border of 
Afghanistan as an insurgency. And then violent armed groups are 
operating against the Pakistani government.
    And the white paper stated quite clearly that you can't 
separate out your actions against one aspect of the threat 
rather than the other. If you work against one part of the 
problem, it is going to migrate to the other. If you are going 
to defeat that enemy, you have to work at all parts of the 
problem simultaneously.
    My second point is that the McChrystal report, at least the 
portions that were made public, is a good first round 
implementation concept for the security-related aspects of 
President Obama's strategy. There need to be more specific 
questions answered, and those are probably answered in parts of 
the report that were not made public.
    But the very important fact that there was a shift to a 
population security counterinsurgency approach for Afghanistan 
and also, for the first time, realistic levels for the Afghan 
national security forces--240,000 for the Afghan national army, 
over 100,000 for the Afghan national police--were put on the 
table, so that there is a--there is an end point where Afghans 
can be securing Afghanistan.
    Regarding the question--third, regarding the question of 
the requested number of troops, I believe the Congress should 
ask a simple question, ``What is the amount of troops that are 
necessary to decisively reverse the deteriorating security 
condition and start a virtuous cycle of improving security and 
governance?'' One can't in one sweep solve the problems of 
Afghanistan, but changing the trends should be what we are 
measuring the troop request against.
    Fourth, the Obama Administration has correctly placed 
emphasis on the need for the Karzai administration to improve 
governance. President Karzai has badly underperformed in recent 
years. But I don't think the confrontational approach that some 
urge vis-a-vis Karzai is the right way to approach it. I have 
seen, when I was involved in policy toward Afghanistan, that a 
smart engagement with Karzai can lead him to take risks for 
reform and manage those risks jointly with his partners.
    Fifth, turning to Iraq, I would say that the continued 
stabilization of Iraq is a precondition for shifting the 
additional forces that are needed in Afghanistan. And 
therefore, it is vitally important that we continue to build on 
the political reconciliation process that started in 2005 and 
that culminated during and after the military surge. We should 
not be playing a heavy-handed role in Iraqi politics, but we 
should remain willing to engage and use our influence to 
catalyze constructive politics if that is needed by the Iraqis 
or when opportunities arise.
    And finally, sixth, as we look to the future of the region 
as a whole and the imperative to constrain the destabilizing 
activities of Iran, the value of our relationships with Iraq 
and Afghanistan rises substantially. And we should start to 
think about how these partnerships might be used in a broader 
regional sense. And we should look at our relationships with 
these countries as opportunities, not as burdens.
    And let me end there. Thank you.
    [The prepared statement of Dr. Strmecki can be found in the 
Appendix on page 77.]
    Dr. Snyder. Thank you, Dr. Strmecki.
    What we will do is we will put ourselves on the five-minute 
clock. Well, I think the etiquette is to go with the 
subcommittee members first, and then we will go to Mr. Coffman 
and Mr. Hunter in whatever order--in some order. And we will 
probably have time for more than one round, if not more than 
two rounds. We will see how it goes.
    I want to begin with the question I have asked a couple 
times before both at the full committee level and at the 
subcommittee level, and I phrased it as, you know, what is our 
moral responsibility in this, and I am not sure that is the 
best way to phrase it.
    But where I am coming from is we made some very strong 
statements back in 2001 that we would not forget about 
Afghanistan, that we would not--I don't know if the words at 
that time were abandon, but we made some very strong 
statements, while it was in our national security to go in and 
take out the Taliban with the help of Afghan allies, that we 
would not forget Afghanistan.
    Some members have returned from visits and where they have 
met with women legislators who--members have heard 
independently from them--use the phrase, ``Please don't abandon 
us again.''
    And I thought of that, Dr. Khan, when I read your 
statement, which is--you say option two, which you favor with 
caveats, is meaning forget Afghanistan and the Taliban. You 
recommend that as a policy decision we should forget 
Afghanistan. Those are your words, which, of course, conflicts 
with Dr. Strmecki, who says, ``We must send a strong statement 
of resolve.'' Obviously, those are in great conflict.
    So my question is how do we respond to women, women 
legislators, those who have aligned themselves with us over the 
last seven or eight years in Afghanistan--how do we reconcile 
doing what is in our national security interest with whatever 
commitments we have made to Afghans who have been helping us?
    And I think, in fairness to General Eaton, we will start at 
this end this time.
    Dr. Strmecki.
    Dr. Strmecki. I agree very much with your first phrasing in 
terms of a moral responsibility. The Afghan people have made a 
common cause with us in two dramatic cases--one, when we 
supported their effort to liberate their country when the 
Soviets occupied it, and the Afghans gave a million and a half 
lives in that struggle, and five million Afghans were refugees. 
And we abandoned them after that conflict without taking even a 
strong political attempt to create a post-war order.
    And yet after 9/11, both Afghans in the north and Afghans 
in the south rose up to join us. We would have never been able 
to overthrow the Taliban with the handful of troops that we 
sent there. It was the catalytic role that those troops had in 
enabling the Afghans to join us in fighting Taliban and al--the 
Taliban-al Qaeda regime.
    So I believe that that creates a--not only a relationship 
but a moral debt that we should vindicate.
    Moreover, your second point in terms of our national 
security interests--I think our security interests are still at 
stake in that region. The enemy that is just across the border 
in western Pakistan is real, and there is nothing more that 
they would like than to move back into Afghanistan and restore 
that period where they had sanctuary there.
    Further, the people of Afghanistan are with us, as you have 
spoken about. So I think that the key operating concept is 
let's make a sufficient commitment now so that we can stabilize 
the situation while we build up Afghan capability to defend 
themselves in the long term.
    Our goal should be to move from being the combat force in 
Afghanistan to an enabling force that supports Afghan 
capability--police, military, intelligence--to secure their 
countryside and to secure their cities. That has really been 
the model where we have been--that we have used to be 
successful in--around the world. I mean, think of South Korea--
completely dependent on us at the end of the Korean War. But 
now, with a military force it really can stand on their own, 
but we remain in an engagement in a supporting way.
    So I would urge you to take that model.
    Dr. Snyder. I might say we each have five minutes, and I 
appreciate your answer, Dr. Strmecki. Maybe you want to err on 
the side of brevity so--in fairness to all members so we can 
get around.
    Dr. Khan.
    Dr. Khan. I am convinced that the Taliban is not a national 
security threat to the United States. Taliban, unlike al Qaeda, 
is a regional----
    Dr. Snyder. No, I want you to respond to--you want us to 
forget Afghanistan after----
    Dr. Khan. Yes.
    Dr. Snyder [continuing]. For seven or eight years we have 
had our soldiers and our civilians encouraging----
    Dr. Khan. My----
    Dr. Snyder [continuing]. Afghan people to align themselves 
with us----
    Dr. Khan. My----
    Dr. Snyder [continuing]. Security, and you want us----
    Dr. Khan. My----
    Dr. Snyder [continuing]. To forget it.
    Dr. Khan. My recommendation is based on these two 
premises--one, the Taliban is not a national security threat. 
Number two is also based on the judgment that we will not be 
able to do what is absolutely necessary for us to do there, 
which is to make a commitment that we will be there until the 
job is finished, and we will do the job right and send enough 
number of troops to fight the insurgency, enough number of 
civilians to build the infrastructure and commit to building a 
democracy.
    The amount of money and efforts that are required--I am 
convinced that there isn't the political will in this country 
to do that. And I fear that in the absence of a political 
commitment to fulfill the moral obligation that we owe not just 
to the Afghans who are our allies but to all the Afghans to 
help build their nations, not kill civilians, and the 
insurgencies--insurgency strategies.
    We will do more harm if we were to pull out later than now. 
The decision to stay is impossible because you could have the 
next presidential candidate running on this--on this agenda 
that we need to pull out of Afghanistan in 2011.
    And so if we were to escalate war now and then create more 
havoc in Afghanistan for the next two or three years, and then 
a new candidate gets elected on the agenda to pull out of 
Afghanistan, and we pull out in 2012, then we will be doing to 
the Afghans again what we did to them in 1989--leave a 
devastated nation helpless again. That is my genuine fear.
    If----
    Dr. Snyder. We will move to Dr. Fair.
    As an Afghan patriot who had aligned myself with the United 
States troops, I would be a bit apprehensive about a political 
analysis based on the 2012 presidential reelection discussing 
what our moral responsibility is, but I appreciate your 
comments.
    Dr. Fair.
    Dr. Fair. Of course, I don't see this in moral terms. I 
don't think we should make current and future decisions based 
upon sunk costs, but I also think it is a fake binary that not 
forgetting Afghanistan somehow means an increased troop 
commitment. Quite the contrary. You can imagine scaling up 
troops to build up Afghan national security forces in the 
preparation of eventually downscaling our kinetic footprint.
    And I am skeptical of this comprehensive counterinsurgency 
(COIN) approach, not because it is not the right thing or the 
optimal outcome, but because I don't believe that we have the 
troop capabilities to do it.
    I don't believe that Afghans are entirely receptive to more 
troops. The polling data pretty much buttresses that opinion. 
And we can't be more committed to Afghanistan than 
Afghanistan's leadership.
    All of our efforts are undermined by the ineptitude and the 
corruption both in Kabul and the strategy to find sub-national 
partners are completely undermined by the--Karzai takes the 
district as well as provincial officials.
    So I have a somewhat different formulation, and I also 
disagree with some of the panelists here. The Pakistani Taliban 
are not the same as the Afghan Taliban. They share networks, 
but they are certainly not the same.
    And so this idea of conflating entirely these two theaters 
I think is really misguided, and we should really be served by 
asking ourselves what, strictly speaking, is our national 
security interest, leaving aside the moral issues, in both of 
these countries and how best do we prosecute those interests.
    Dr. Snyder. General Eaton.
    General Eaton. Mr. Chairman, 60 nuclear weapons are a vital 
national interest. Regional stability to protect those weapons 
from extremists--our moral responsibility is a subset of that 
mission but an important subset.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I want to thank the panelists for being with us today. I 
want to look at this issue maybe in a little bit broader 
perspective, because I think there is a lot of 
interrelationships there in the region, and I think we all 
agree, at least what I am hearing from you, that strategically 
a stable South Asia is in this nation's interest.
    And we see there is animosity between a nuclear-powered 
Pakistan and a nuclear-powered India. We also see Afghanistan 
as one of the top producers of heroin. We see instability and 
terrorist activities in Pakistan increasing. We also see a 
hostile and emerging nuclear threat in Iran. We see transition 
in Iraq--lots of dynamic situations in that region.
    I just want your overall thoughts about what do we do in 
that particular scenario to increase stability in South Asia? 
And obviously there is a lot of interconnectivity there.
    But, General Eaton, we will begin with you.
    General Eaton. Thank you, Congressman. I think General 
McChrystal's comprehensive plan is a--from a military 
perspective is a very good plan. I would like to see the rest 
of the executive branch, all departments, support the general 
in the prosecution of his mission.
    He has got to provide the security with the military. I 
believe that the rest of the executive branch needs to fall in 
and support in providing the prosperity that we need to see 
derived from the security.
    So his approach to take whatever number of extra force 
structure he gets to go after an urban counterinsurgency to 
create prosperity zones with a security zone I think is a very 
prudent approach to military operations in Afghanistan.
    Dr. Fair. I appreciate your regional take on this. But I 
want to point out that our inability to compel Pakistan to 
decisively cease supporting all militant groups is actually the 
crux of this.
    Let's remember that it was a Pakistan-based and -backed 
terrorist group, Jaish-e-Mohammed, that attacked the Indian 
parliament in 2001-2002 which brought the largest mobilization 
of those forces, brought the country--both of them to a near-
war crisis with the specter of nuclear escalation.
    Everyone that studies South Asia agrees that a militant 
attack, say, akin to that which happened in Mumbai will be the 
most likely precipitant of an Indo-Pakistan conventional crisis 
with potential escalation.
    I might also add that Pakistan's own domestic problems 
again stem from its support of militant proxies. The Pakistan 
Taliban, the Tehrik-i-Taliban Pakistan (TTP), shares 
overlapping membership with those very same groups that target 
India and, obviously, the Afghan Taliban operating in 
Afghanistan.
    So it can't defeat its own internal security threats, which 
brings into the question of Pakistan's national integrity and, 
obviously, its strategic assets until it is compelled to 
strategically abandon militancy as foreign and domestic policy 
tools.
    Dr. Khan. There are two things that I would like to point 
out, and I want to work on--build on what my colleague here 
said.
    I think, first of all, we need to really honestly ask the 
question, ``Are we the force of stability in the region or 
not?'' It is my understanding that the United States presence 
in South Asia contributes to the instability in South Asia.
    Before we went there, there was no suicide bombing in 
Afghanistan. Before we went there, there were no two Talibans. 
And the level of violence was not this level. And we have been 
there for eight years and things have got continuously and 
steadily worse.
    So I think we need to ask a question that the major 
military presence of the United States in South Asia--does it 
contribute to stability?
    I consider major U.S. presence, military presence, there as 
a provocation. It is a provocation not only to the militants 
but it is also a provocation to the population, which will 
align itself with the militants.
    This concern that we have for nuclear weapons in Pakistan 
is read entirely differently in Pakistan. It is seen as an 
attempt by the United States to neuter the Islamic world, which 
is to deprive the only Islamic country with nuclear weapons of 
that capacity. So Islamists, radical extremists and even those 
elements in the Pakistani government which see the U.S. threat 
to Pakistani nuclear capability continue to play with the 
extremists.
    The Directorate for Inter-Services Intelligence (ISI) and 
others who support the Taliban in Afghanistan do it for two 
reasons--one, because they sympathize with the geopolitical 
view which is anti-Americanism and see America as an enemy of 
the Muslim world, and number two, they also see these as 
instruments to pursue their geopolitical interests in the South 
Asia vis-a-vis Kashmir, et cetera.
    But I believe that the United States military presence will 
not contribute to stability. Sending more troops into 
Afghanistan will provoke more violence. There will be more 
civilian deaths, which will mean that the extremists will 
continue to get more support monetarily as well as in terms of 
recruits.
    So we engage for moral purposes or for strategic purposes, 
the way to do that is not through increasing military presence.
    Mr. Wittman. Dr. Strmecki.
    Dr. Strmecki. The violence and chaos in that region for the 
past 25 years has stemmed in large part from Afghanistan being 
a zone of proxy warfare among the regional powers--Russia, 
Iran, India, and Pakistan.
    And so if we are able to stabilize Afghanistan, to enable 
it to build institutions so it can defend itself and that it 
assumes a neutral posture vis-a-vis regional rivalries, then 
you have kind of put a keystone in an arch of regional 
stability.
    And in fact, if you look back over the history of the last 
50 years, a stable Afghanistan produces greater stability in 
the region.
    Moreover, once you have that, you can unlock regional 
trade. The stable Afghanistan would be a land bridge that would 
unlock--or it would create an economic zone of more than a 
billion people and a trillion dollars of aggregate gross 
domestic product (GDP). Already you see intrepid truck drivers 
transiting Afghanistan to start stitching together the old Silk 
Road routes.
    But if Afghanistan is stabilizing and we become engaged 
with the regional countries in planning the infrastructure to 
allow regional trade, you could create some win-win situations.
    Dr. Snyder. Thank you, Mr. Wittman.
    Mr. Nye.
    Mr. Nye. Thank you, Mr. Chairman.
    I want to start with one question focusing on Pakistan. I 
am going to ask this of Dr. Fair and Dr. Khan. And I agree a 
hundred percent that what happens in Pakistan as that plays out 
is critical to our ability to have success in tackling the 
number one U.S. national security objective in the region, 
which is defeat of al Qaeda in the region.
    And what I would like to have your comments on is, Dr. 
Fair, you suggested very clearly today we need to compel 
Pakistan to abandon its support of the Afghan Taliban and start 
to focus on helping us defeat them in Pakistan.
    What I would like to ask is for your ideas of how to 
accomplish that. I suspect that somewhere in the grand scheme 
our relationship with India, and India's relationship with 
Pakistan plays a large role in that, but I would like to get 
both of your thoughts on how would we compel or get the 
Pakistani government to change their approach, to be more 
helpful to us in achieving the goal that we are trying to 
achieve in Pakistan.
    Dr. Fair. I am going to sound like a crazy woman, but let 
me put a few things on the table nonetheless.
    The Kerry-Lugar legislation I think actually rightly 
identifies that the Pakistan army is as much a part of the 
problem as it is any solution. And I think it is right to 
condition security assistance--in fact, I favor a stronger 
conditionality than that which eventually appeared in that 
legislation. The problem is it is subject to a waiver.
    And as long as we need Pakistan to facilitate the massive 
logistical support in our--to support our effort in 
Afghanistan, which will only increase as we increase the 
troops, you can bet that waiver is going to be applied.
    So I think that we need to be much more creative in 
thinking about negative inducements--sticks, if you will--much 
more targeted and really increase the political will here in 
Washington to apply those negative inducements. And obviously, 
our dependence upon them diminishes that will.
    At the same time, I think we need to be much more creative 
about positive inducements. It is very clear that money alone 
does not fix Pakistan's chronically neuralgic sense of 
insecurity vis-a-vis India.
    I don't think that what India does or does not do in 
Afghanistan is going to make Pakistan stop supporting the 
Taliban. I think we need to think very hard about what is 
Pakistan's genuine source of insecurity and put some things on 
the table that might be out-of-the-box.
    Let me put one on the table, and it will probably engender 
snickering. What is wrong with a conditions-based civilian 
nuclear deal for Pakistan, a highly conditions-based? They will 
probably never make any of those conditions.
    But in the process of trying, we gain more visibility into 
their nuclear program, which I think everyone would want to 
make sure that its command and control is as reasonable as it 
can possibly get. And some of those conditions could even 
involve its support for non-state actors.
    You could also even imagine working with the Indians and 
the regional partners to put a security guarantee. If Pakistan 
really engages in these policies because of fundamental 
insecurity, let's call their bluff.
    So I am not going to sit here and say I have all the 
answers, but what I can say--a genuine compellence campaign 
needs much more clever positive inducements and greater 
political will to apply more clever negative inducements.
    Mr. Nye. Thank you.
    Dr. Khan, you also suggest in your testimony that we need 
to incentivize Pakistan to stop pursuing two countervailing 
tactics at the same time. Do you have ideas of how to do it?
    Dr. Khan. There is one thing that we need to understand. 
Our interests are not fully in sync with that of Pakistan. 
There are two threats there, the Taliban and al Qaeda.
    Taliban in Pakistan are a threat to Pakistan, not so much 
as a threat to us. But al Qaeda, who are also in Pakistan, are 
more of a threat to us than they are a threat to Pakistan.
    So what happens is that when we target al Qaeda, we can be 
indifferent to Pakistani Taliban, and when Pakistan targets 
Pakistani Taliban, it can be indifferent to al Qaeda. So that 
is something that we need to understand, that there is a--the 
lack of sync. We are not fully synchronized in terms of our 
threats from extremism.
    I mean, strangely, our best friends right now are the 
Pakistani Taliban. By killing civilians in Pakistan, they are 
generating public opinion against them which is empowering the 
army to act strongly against the extremists in Pakistan. So the 
only reason why the military is now operating in Waziristan is 
because there is public support in Pakistan now.
    The U.S. relations with India, the continuing bettering of 
U.S. relations with India, is a continuing source of increasing 
insecurity of the Pakistanis, and Pakistanis will not be able 
to be full allies of the United States if they continue to 
perceive that India is closer to the United States.
    So there are several things that we can do. One of the 
things that we need to do is to--to provide long-term 
guarantees to Pakistan, to say that we will never abandon 
Pakistanis when it comes to India-Pakistan relations, we will 
not allow a situation in South Asia which will undermine 
Pakistani interests and advantage India.
    We have not convinced the Pakistanis on this score, 
especially on our deal with the F-16s. The deals are not 
compatible with India and Pakistan and our nuclear issue. We 
are favoring one country over the other.
    So I think if we can somehow shore up Pakistani insecurity 
vis-a-vis India and we also convince Pakistan that we will not 
allow India to gain the other side of Pakistan, which means 
allow India to have significant strategic presence in 
Afghanistan--right now, Pakistanis feel that just as we feel 
that Pakistan has a--is playing on both sides with the Taliban 
in Afghanistan, Pakistan feels that America, too, is doing the 
same thing by allowing India significant strategic presence in 
Afghanistan, which by--thereby surrounding Pakistan.
    So basically, the key is the insecurity of Pakistan, 
especially the military and the political elite.
    Mr. Nye. Okay. Thank you.
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I am sorry I wasn't able to hear everyone's 
presentations, but let me try and just follow up with that a 
little bit.
    Part of my understanding--and please correct me if I am 
wrong--is that some of the insecurity would be further 
increased in Pakistan if we did not try and bring about 
stability in Afghanistan, that the--that there is a great 
concern about our leaving, essentially, or not engaging 
incrementally now in a way that would change the situation on 
the ground.
    And I wonder if you could comment on that, because it--part 
of it--the real difficulty here is trying to, in an Af-Pak way, 
understand whether or not it really matters, and the extent to 
which it matters, what happens now in Afghanistan rather than 
in Pakistan, where we know a lot of the efforts, a lot of that 
relationship-building, has to occur given the situation on the 
ground.
    And the follow-up to that, really, is to the extent to 
which we are--we are secure in the belief that if, in fact, a 
lot of help occurred in Afghanistan today whether that would 
really make a difference in terms of the ability of the Afghan 
army, the law enforcement and the government to be able to 
actually be a counter to Pakistan in a way that would be 
meaningful and helpful.
    Anybody want to comment on that? Dr. Fair.
    Dr. Fair. Anyway, first, let me just step back regionally. 
India is over the long term our strategic ally. India doing 
what it wants and needs to do in the region basically prevents 
China from consolidating its hegemony. So this is what is 
motivating the long-term strategic interest with India--is 
opportunity.
    Our engagement with Pakistan is largely framed because we 
are scared of it, and it actually turns its frightening-ness 
into an asset, because it says ``We are too dangerous to let 
you fail.''
    I don't believe that sending them F-16s or conventional 
armaments in any way diminishes their security apprehensions 
about India. It has much more to do with the way in which the 
region was cleaved. So sending more F-16s, buttressing 
Pakistan's conventional capabilities against India, isn't going 
to fix the problem.
    And their distrust of the United States doesn't go back to 
1989. It goes back to 1962 when we basically armed the Indians 
vis-a-vis the Chinese.
    And I think Americans need to stop this narrative ``If we 
abandon Pakistan.'' The fact is we were aligned with Pakistan 
in the 1980s because of national security interests. They were 
cut off because they chose to proliferate, and that was more 
important than F-16s.
    Incidentally, they probably made the right decision to go 
for nuclear weapons over a batch of F-16s. But we need to hold 
Pakistan accountable for its actions. We didn't simply walk 
away from the region.
    Similarly, India is an actual regional power. We cannot say 
to India, ``Stop being involved in Afghanistan.'' In fact, to 
step back, I would argue that India, even Iran, has a lot more 
in common with us and our interests in Afghanistan than does 
Pakistan.
    Now, it is true that there are probably two camps in 
Pakistan. There are those that fear the U.S. withdrawing, that 
there will be greater insecurity. But I assure you the 
strategic elite in Pakistan would prefer a stable, chaotic 
Afghanistan than a stable Afghanistan which will most certainly 
have greater ties to Iran and, in particular, with India.
    General Eaton. From a military perspective, you isolate the 
objective. We have not done that in Afghanistan. The free flow 
across the borders is creating a terrific problem for all 
military units operating in Afghanistan.
    And I really like what I heard Dr. Fair comment on as far 
as Pakistan and India are concerned.
    Dr. Khan. For a long time Pakistan has used the chaos in 
Afghanistan as a strategic asset. Pakistan is not interested in 
stability in Afghanistan because instability in Afghanistan has 
been a source of tremendous military and financial aid from the 
U.S. during the 1970s, 1980s, 1990s and once again.
    But in the fight with the Soviet Union, Pakistan has 
benefitted financially and militarily because of instability in 
Afghanistan, and they continue to do so.
    The Pakistani military and the Pakistani political elite 
genuinely believes that it can manage Afghanistan on its own, 
and that is why they created Taliban. And they believe that 
ISI, with its control and links with extremists and the various 
military groups in Afghanistan, can manage Afghanistan. And if 
you talk to them now, they will tell you, ``We kept Afghanistan 
very much under control before you came, and it is after the 
U.S. adventure in Afghanistan that we see that the chaos has 
been escalating.''
    So in spite of the fact that Afghanistan produces 
tremendous amount of refugees who go into Pakistan and are 
having an impact on Pakistan's social fabric, Pakistan elite 
believe that Afghanistan is their regional sphere where they 
would like to have influence. Even though Pakistan has had good 
relations with Iran, they have not tolerated Iranian 
interference in Afghanistan.
    But what they fear now is that the United States, when it 
leaves Afghanistan, it will hand over the management of 
Afghanistan to forces other than Pakistan. It could be Iran. It 
could be Pakistan. Or it could even bring in other 
international players such as China and other players.
    So Pakistan will continue to agitate Afghanistan in order 
to have global leverage. Without Afghanistan, they have no 
leverage.
    Dr. Snyder. Mr. Hunter for five minutes.
    Mr. Hunter. Thank you, Mr. Chairman, and----
    Dr. Snyder. Incidentally, I should point out----
    Mr. Hunter [continuing]. The opportunity to be here.
    Dr. Snyder. Mr. Hunter, I should point out, this is former-
Marine day on the subcommittee, with Mr. Coffman, yourself and 
me. You know, we have got them outnumbered, so----
    Mr. Hunter. Semper fi. [Laughter.]
    Thanks for letting us be here today to--really appreciate 
it. I had a lot of specific questions, but I want to get into 
one. We are not at the ground floor in this debate anymore. We 
are kind of talking like we are. And my question--one, is we 
are over there. We are committed. We are on the 50th floor. So 
what now?
    And I don't think that our commanders over there are 
ignorant of anything you all are saying. I think they all--do 
you think they are ignorant of this? I think that they have 
heard probably every point of view.
    And the State Department involvement--I was stationed in 
Afghanistan for my third deployment in 2007, and I just went 
back over this last weekend. It was fun.
    The State Department involvement and the civilian and smart 
person involvement now with the military in Afghanistan is 
unprecedented--never happened before. It has quintupled since 
July, the number of State Department, United States Agency for 
International Development (USAID) personnel.
    And there is a--there is a two-star civilian for every two-
star military person now. There is a whole chain of--of command 
for the civilian side, along with the military side.
    Everybody is confident that if they are asking for a troop 
surge--I mean, that is what everybody is asking for. My 
question is so what now, then? I mean, there is--we are talking 
a lot. We are at the 50th floor, not the ground floor anymore.
    We are over there. We are committed. Dr. Khan might have us 
pull out, but not on the basis that we can't win, on the basis 
that you don't think we will stay.
    Dr. Khan. Yes.
    Mr. Hunter. Right?
    Dr. Khan. Yes, exactly.
    Mr. Hunter. Okay. So what now? That is all I got. And that 
is the big--what do you recommend if we do want to--so that we 
can leave at a certain point in the next two to five years and 
leave it relatively stable, not abandon it totally? We probably 
will leave troops there like we will in Iraq. But so what now?
    Dr. Strmecki. My view is the end state is you want Afghans 
defending Afghanistan with us enabling them in the way you 
spoke.
    And so the way to get there is to give General McChrystal a 
surge that allows him to reverse the deteriorating trajectory 
of security, particularly in the east and south, and to put the 
Afghan national security force buildup on a--on a trajectory 
that allows the build-out of local security to be done by 
Afghans.
    In his report, he didn't give us a timeline in the sense of 
how long does the surge have to be, so do you get the 
handover----
    Mr. Hunter. He gave us metrics, though.
    Dr. Strmecki. That is right, he did----
    Mr. Hunter. Right.
    Dr. Strmecki [continuing]. And I think in the portions that 
weren't made public there probably is more of a timeline.
    But I think that is the right template. And so I would give 
him the resources to execute that if in asking him about the--
his template and about his timelines you find that compelling.
    Mr. Hunter. Pro-surge.
    Dr. Strmecki. Yes.
    Mr. Hunter. Okay.
    And, Dr. Khan--and caveat your answer with we are not going 
to abandon Afghanistan----
    Dr. Khan. Okay. I am going to abandon that----
    Mr. Hunter [continuing]. And leave them----
    Dr. Khan [continuing]. Assumption. I am going to abandon 
my--fear that we will abandon. Based on that, I think we need 
to look at Afghanistan not as a source of security threat but 
to look at it as a failed state that we are trying to fix.
    And once that whole perspective changes--okay, we are here, 
we are going to do what is necessary to be done, then you look 
at Afghanistan as a failed state that needs to be done. So 
basically our problem here is building state mechanisms so that 
Afghanistan can become a self-governing unit--very simply it 
can stand up on its feet.
    For that, the last--the first criteria is to be able to 
secure it, which means being able to isolate Afghanistan from 
Pakistan. Our ability to seal the border--that the threats from 
Pakistan do not come back into Afghanistan, and then we can go 
after all the problems. If we can secure Afghanistan, isolate 
it from all other threats coming from the Middle East, foreign 
fighters and Taliban coming in--and then you build. You build 
state institutions.
    And it is not enough to just build the police and the 
military. But you also simultaneously build confidence in 
governance.
    And if we are there for five, six years, and the population 
now begins to hope that, ``Okay, A, Americans are not going to 
abandon us and go away, let's take the risk with the American, 
we can see things improving, we can see things improving in 
Kabul, we can see things improving in some parts of 
Afghanistan''--that success can be replicated in other--I have 
spoken to people who are fascinated by the changes that have 
taken place in Kabul.
    Kabul has improved significantly. If that can be replaced 
in other places--but there is one more point that I do want to 
make about this, and it is--this is to understand that this is 
not about a security. This is not a war anymore. We are 
essentially reconstructing a failed state. That would be the 
other way of thinking about this.
    Mr. Hunter. In interest of--time, I want to get everybody 
else to answer. So you are pro-surge, too, but not necessarily 
for counterinsurgency but for isolating Afghanistan----
    Dr. Khan. And then building state.
    Mr. Hunter. Okay, so two pro-surges. Okay.
    Dr. Fair.
    Dr. Fair. I am somewhere in the middle. And I think--I--
my----
    Mr. Hunter. I am sorry, Dr. Fair, I didn't hear what your 
preliminary comment was.
    Dr. Fair. I am somewhere in the middle between these guys.
    Mr. Hunter. Somewhere in the middle, thank you.
    Dr. Fair. I mean, I think we do need to think about a 
surge, mostly because the training billets for training the 
Afghan police and the Afghan national army are massively 
understaffed. Leaving aside the numbers, we can also talk about 
the quality.
    However, I am not a fan of increasing kinetics. If you were 
to ask--answer the question that Dr. Strmecki posed, do we have 
enough troops to meet the kinetic mission, I don't think we do.
    Mr. Hunter. General McChrystal doesn't want more kinetics.
    Dr. Fair. No, no, exactly. So I am certainly of the belief 
that Afghans have to stand up.
    But let me say very clearly this is where the rubber hits 
the road, with this Afghan government. I am sure you are aware 
of the Focused District Development Plan, which is a program 
that is meant to train police to deal with local corruption. So 
we take the police out, we hose them off, give them eight weeks 
of training. You can question whether that is adequate, and 
certainly the people who are training even question their 
capabilities.
    But then we put them right back into the district where you 
have the same corrupt district governor, the same corrupt 
provincial governor, and then we are surprised by recidivism.
    So this is a really good example of our inability to 
produce quality Afghan National Security Forces (ANSF) because 
of the corruption in Kabul. So we can't fix that with troops. 
We simply can't make Karzai do a good job. That is not fixed by 
troops.
    Finally, I do want to raise this issue that never gets 
discussed. The Afghan government cannot pay for any of the 
institutions that we are building. It can't even pay for a 
fraction of it. In fact, it couldn't even pay for its election.
    So my concern is that we have--we are essentially building 
a country that is ever more a rentier state than it has ever 
been. And I am a realist. Americans are going to stop paying 
for this. NATO and its contributing countries are going to stop 
paying for this. And we build a state which is absolutely 
unsustainable.
    And so looking down the 10-year time horizon, that is when 
it becomes vulnerable again to all of its predatory neighbors. 
And let's be clear, all of its neighbors are predatory.
    So at some point in these discussions, we really need to 
enter in some discussion of sustainability, unless you are 
going to make poppy a biofuel.
    Mr. Hunter. But your answer is slight surge. You are----
    Dr. Fair. Yes, but focus on Afghan capabilities, but we 
have to get the corruption in governance issue. Otherwise we 
will fail.
    Mr. Hunter. Civilian surge, which is helping with that 
quite a bit.
    Dr. Fair. Can a civilian surge make Karzai be anything but 
a corrupt kleptocrat who----
    Mr. Hunter. It could help.
    Dr. Fair. I am skeptical.
    Mr. Hunter. General. I am really short on time, General. I 
am sorry.
    General Eaton. Afghanistan can exist as a pretty nice 
country. It did so in the 1970s. Not a bad place. A whole lot 
of my generation cruised through there in bell-bottom jeans. So 
it can be a pretty nice place.
    So it can get back there. And if we resource General 
McChrystal's plan to the degree to moderate risk--and this is a 
discussion between the Chief of Staff of the Army and the 
commandant of the Marine Corps on what those two services can 
provide General McChrystal.
    It is that tension between a plan not established in a 
constrained fashion, which is General McChrystal's plan, 
which--and that is his job, to plan in an unconstrained 
fashion. He has put a bill on the table, and between Department 
of the Army and Department of the Navy that plan will be 
resourced. At the same time, the surge in a civilian arena--the 
rest of the executive branch has to match his appetite for 
civilian support.
    Mr. Hunter. [Off mike.]
    General Eaton. Correct.
    Dr. Khan. I just want to add--caveat a reminder to you--
remember when Karen Hughes was hired to talk about public 
diplomacy as an important part of--we are going to win the 
hearts and minds of the Muslim world?
    That year, U.S. defense budget was over $700 billion, and 
the public diplomacy budget was $500 million, and most of it 
was pulled away for Katrina relief, and she literally had no 
money to do her job.
    And that is my consistent fear, that we might spend 
hundreds of billions of dollars on the war effort, but we will 
not commit that kind of same parallel effort in institution-
building and state-building.
    And given our past record of last eight years in 
Afghanistan, I really don't feel confident. That is why if you 
take my word for surge, I want you to have this on record that 
a surge only on the condition that we are committed to doing 
the right thing and doing it right.
    Dr. Snyder. Mr. Coffman for five minutes, and then we will 
go vote.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Eaton, when we--we just lost eight soldiers from my 
state out of Fort Carson recently in north--in a forward 
operating base in northeastern Afghanistan, a very remote area, 
very little population in that area.
    Ironically, they were ordered to be pulled back prior to 
the Taliban assault on their position. Where would you draw the 
line between--given the resources that we have, between what is 
a counterterrorism strategy versus what is a counterinsurgency 
strategy?
    General Eaton. Thank you, Congressman. And I regret every 
casualty that we are sustaining over there, and--because it is 
pretty personal from my family perspective.
    As I understand General McChrystal's plan, he is going to 
establish a counterinsurgency approach to operations and he is 
going to focus on urban areas. If you cannot provide 600,000 
soldiers to do a country-wide, by our doctrine, 
counterinsurgency operation, then you are driven to something 
less than that, a COIN-lite is the phrase being tossed around 
out there, where you perform our counterinsurgency doctrine but 
in smaller places--specifically, urban areas--Kabul, Jalalabad, 
Kandahar.
    So you have got that approach, and I would like to just 
make one short comment about a letter that was written by the 
translator for the New York Times reporter who was rescued and 
the translator killed in the operation the Brits conducted a 
few months ago.
    He writes from Germany, and he says, ``I look forward to 
returning to my country, Afghanistan, and to leave the 
manicured parks of Germany and the concrete and the asphalt. I 
look forward to returning to my village, which is miles from 
the closest road, where it is natural, where I can once again 
have the dust of Afghanistan on my boots.''
    Now, that is a different guy from what General McChrystal 
is focused on in the urban areas, and I think that the urban 
areas are a doable approach to counterinsurgency warfare and--
or operations--counterinsurgency operations.
    Mr. Coffman. Thank you.
    In looking at Iraq, drawing a parallel to Iraq, there was a 
turning point that certainly involved the surge but a number of 
other factors that created an environment that brought the 
Sunni Arab insurgency on board with coalition forces.
    In looking at Afghanistan, is there enough outreach to the 
Pashtun population to be in the Afghan army? And I talked to a 
Marine Corps general a couple weeks ago in Helmand Province who 
said that--and granted, there was nobody down there prior to 
his brigade going down there, but that there was yet to be an 
effort to create--to recruit the Pashtuns in that particular 
province.
    Is that an issue, anybody?
    Dr. Strmecki. When I have looked at the data, the Afghan 
national army is relatively ethnic--ethnically balanced at the 
recruit levels or sort of the enlisted level. There is a little 
bit of a tilt toward the Tajik community in the officer corps.
    But the challenge, really, for the Afghan national army has 
been scale. We undersized it because there was an assumption 
when it was designed that there would be a relatively benign 
security environment, and we were slow to react in increasing 
the end strength of the Afghan national army as the security 
situation deteriorated.
    I think the kind of outreach that is needed to sort of 
replicate the Sunni Awakening is really in every locality to 
understand what is driving the--any support for the insurgency. 
Is it bad governance? Is it intertribal rivalry that pushes one 
tribe toward the Taliban? Is it the need to make money?
    And if you do that kind of analysis--and General 
McChrystal's report suggests that this is the kind of thing 
that he will do--then you can form political strategies to peel 
people away, peel away what might be called the soft outer 
layers of the Taliban.
    There will be a hard core that you can't change and you 
will have to target, but I am convinced in many of these areas 
there are, as Kilcullen wrote, accidental guerillas or 
incidental guerillas that can be pulled out of the fight.
    Mr. Coffman. Yes?
    Dr. Fair. One caveat--it is true when you look at the 
composition it does generally look ethnically distributed. The 
problem with the Pashtuns is they are mostly coming from the 
north. There really is inadequate reach of Pashtuns in the 
south. And obviously, that is where so much of the problem 
resides.
    In addition, it is so easy to focus upon the army, but we 
have really come across the police as a major issue somewhat 
late in the game. For example, I was up in Kunduz as an 
election monitor. You will have districts there that only have 
30 police officers, and--and who knows what those police 
officers are actually doing.
    So while the army is certainly important, I really would 
like to drive home that it is actually going to be the police 
that are going to be the element of this strategy that actually 
does the whole----
    Mr. Coffman. Well, let me interject with another question 
on that, because what I noticed when I was in Iraq with the 
United States Marine Corps is that there were real--that the 
army--we had a lot more confidence in the army than the police 
because the army tended to be from another province that came 
in there.
    At night, you know, they would go back to their forward 
operating base that was separate from the civilian population.
    The police tended to be from the community. The insurgents 
knew where they lived. They could be targeted. Their families 
could be targeted. They had a tendency not to do their job, 
and--unless there was adequate security.
    But in that interim period, it was very tough, and so I 
think that--have we overemphasized the police at the expense of 
the army----
    Dr. Fair. I----
    Mr. Coffman [continuing]. At this part?
    Dr. Fair. See, I would actually say the opposite.
    Dr. Snyder. Okay, Mr. Coffman, we better let this be your 
last answer here, since we have got votes.
    Dr. Fair. No, actually the opposite, that we started 
building the Afghan army, which has actually been relatively 
successful, and we came to the police too late. The Germans had 
responsibility for the police and they were a complete 
disaster.
    So I think we can't forget the police, but one interesting 
side effect was observed as a part of the Focused District 
Development Plan. When we pull the police out of the district, 
the Afghan national civil order police go in, and they are a 
national police.
    And interestingly enough, the locals in the district didn't 
want the Afghan National Civil Order Police (ANCOP) to leave 
because they were, in fact, not corrupt. Because of the reason 
that you noted, they were not embedded in this political web of 
corruption.
    So when I look at Focused District Development (FDD), one 
of the really interesting lessons learned is that ANCOP has 
been really successful.
    Dr. Snyder. We have to go vote. We have a series of three 
votes, two if we walk slow. [Laughter.]
    And we will be back. Thank you.
    [Recess.]
    Dr. Snyder. We will go ahead and resume. I am sorry that 
took longer than I thought it was going to. You have been 
patient. One of the new members was sworn in.
    I wanted to ask about the issue of the Taliban in 
Afghanistan themselves.
    Dr. Khan, in your written statement, you say, ``To make 
matters worse, they are proving to be very resolute, cunning, 
resourceful and brazen.'' And you know, obviously, they have 
had some successes. The level of violence has gone up over the 
last months.
    But we can also overstate, can we not, their resources, 
skills--you know, while they can obviously hurt a lot of people 
and do violence, I mean, they have some disadvantages, too, 
compared to other insurgencies.
    So I mean, I will address that to you, General Eaton, and 
then let the rest of the panel--where does the--well, how do 
you respond to that statement about resolute, cunning, 
resourceful, brazen and what we think of the fighting force of 
the Taliban in Afghanistan, what their pluses and minuses are?
    General Eaton. Mr. Chairman, thank you. From my perspective 
and talking to soldiers who have been in the theater, all of 
that is true. Some of the abilities to mass forces and conduct 
significant operations, 150 to 200 strong, albeit lightly 
armed, the ability of Taliban to mass--to produce that kind of 
number without our intelligence systems picking up on it, is 
worrisome.
    And it shows a far more sophisticated Taliban offensive 
capability that--than we have seen in the past.
    Dr. Snyder. Anybody else?
    Dr. Fair.
    Dr. Fair. The problem is they have a different bar for 
success than we do. They don't have to beat us. They only have 
to keep us from decisively winning.
    And I think we would be remiss if we didn't understand that 
the Taliban, at the very local level, actually do confer 
certain benefits to their community, albeit at a very high 
price.
    So for example, they do adjudicate disputes. And we are not 
talking about complicated disputes, but in a rural, agrarian 
society, family disputes and land disputes are very important. 
And they resolve them very expeditiously. And of course, the 
Afghan government has no ability to do that at the national, 
much less sub-national, level.
    They also provide some ballast or some counterweight to 
corrupt officials, so when you want to get something done, and 
you have got an official--a corrupt official--a corrupt 
official getting in your way, you go to the Taliban commander. 
No one really disputes what the Taliban commanders have to say.
    And they also have a jobs and development program called 
``poppy''. So in some ways, if we could replicate what the 
Taliban do at the local level, we might be in a position to 
win.
    The problem is we don't have--and I don't just mean we the 
internationals, I also mean the Afghan government doesn't have 
the presence at the district level where the Taliban seem to be 
so effective.
    Dr. Snyder. Yes, Doctor.
    Dr. Khan. A couple of things that I want to point out to 
you. For example, the amount of money that we give Afghans or 
the Afghan government pays those who join the Afghan military--
is way more than what the Taliban pays those who fight for 
them. Yet the degree of motivation that is demonstrated by the 
Taliban in the fight is significantly higher.
    There are some analysts who believe that there is a soft 
core and there is a hard core to the Taliban, and then that not 
everybody is just as motivated as the hard core of the Taliban, 
and the less motivated ones can be peeled away by giving 
financial incentives and others.
    But what is amazing is the amount of motivation that they 
show--an extremely powerful fighting enemy like either the NATO 
forces or U.S. forces. I sense that they take their legitimacy 
for granted, which is something very interesting. When they 
operate in areas which they control there is no question of 
whether they are legitimate or not, because they conduct the 
business of--to tribal rights. They do business as Afghans are 
used to doing business.
    But when they resolve disputes or when they govern there is 
no question of legitimacy, but when this government sponsored 
by the United States, Hamid Karzai's government, comes to 
govern, then it has first got to establish legitimacy in the 
various areas.
    And it finally--I am repeating this, but I think it is 
important for us to understand that for many Afghans U.S. 
military presence is a provocation and they see that as an 
occupation. Taliban driving around in trucks with guns is 
normal. That is not a provocation. That is not a reason for 
them to become a fighting force.
    But the Americans driving around in tanks with guns is a 
provocation, and that is difficult for us to overcome. We could 
have 100,000, 500,000 American civilians there doing various 
civilian projects. That is not a problem.
    Dr. Snyder. My question is about the capability of the 
Taliban.
    Dr. Strmecki.
    Dr. Strmecki. I think it is possible to overstate the 
capabilities of the Taliban, though they may be able to mass on 
a limited basis on some--for some operations or conduct some 
sophisticated commando operations as a few attacks in Kabul 
have shown.
    Their dominant tactic is the improvised explosive device 
along the road, and that is a sign of weakness rather than 
strength, because it is essentially--if you are caught doing 
it, you are finished.
    And so I would say the--what Chris said about the mismatch 
of their strategy versus our counter strategy up to now, before 
we move into a more population-centered strategy, is really 
magnified.
    They have gotten everything they can out of their strategy, 
because they are in the villages. They can intimidate the 
population. We are--we haven't been. As we move to a COIN 
approach based on population security, then I think we will see 
their advantage diminish.
    Dr. Snyder. I wanted to ask on a different question, 
though--several of you have mentioned NATO either in your 
written statement or in the conversation today.
    I was talking to a European diplomat in the last few days 
who said that, in fact, he may share some of you all's concerns 
that--about what is going on but expressed a view that whatever 
happens, this does not need to be perceived or it be in reality 
a--seen as a defeat for NATO.
    We will start with you, Dr. Strmecki--comment on that, how 
much of a factor and in what way should that be a factor in our 
thinking and in the President's thinking?
    Dr. Strmecki. If we were to fail in Afghanistan, I think it 
would be impossible to insulate NATO and its reputation from 
such a defeat.
    The limitations of other NATO partners in Afghanistan has 
been a problem with a constant fight over caveats. And so my 
view has always been that the United States needs to do with 
the Afghan government what is necessary to succeed.
    Any NATO partner that comes along with any capability that 
they can offer, let's find a niche role in which that country 
can succeed with its own capabilities. And we have done this 
well in Regional Command (RC) East.
    And it fashions a kind of a soft landing for NATO, which 
has not shown itself able to operate with the kind of quality 
and robustness that is necessary to take on this security 
environment.
    So I would look to fashion our own strategy first and then 
find a way to make NATO succeed as part of it.
    Dr. Khan. [Inaudible] on behalf--the United States. The 
fact that we are talking about a surge in American troops right 
now--that NATO has already failed in Afghanistan.
    [Inaudible.] They are looking for soft--the United States. 
They are also--General Stanley McChrystal's report, but--any 
commitment of additional troops--it is a half-hearted effort--
we will not--suggest that NATO is going to fail eventually.
    [Inaudible.] The key question--region. If NATO succeeds in 
Afghanistan--successful or not. But Afghanistan then--then, of 
course, the failure will be shared by NATO.
    Dr. Snyder. Dr. Fair.
    Dr. Fair. Oh, I very much agree with the comments of Dr. 
Strmecki, and I would add a further problem. I have visited 
many of the Provincial Reconstruction Teams (PRTs) in 
Afghanistan, and what is absolutely frustrating about them is 
that they actually tend to do more what their domestic 
constituents want rather than what the locals need.
    And there is a massive problem with coordination across the 
PRTs because they are driven by these national actors. So for 
example, if there is a large infrastructure project that spans 
multiple provinces, there is really no way of getting all of 
the PRTs in those provinces to work together. So apart from the 
caveats, the lack of coordination and synchronization of the 
international actors are very disturbing.
    I am also concerned about some of the specific actors. For 
example, the security environment in Kunduz has degraded 
tremendously since 2007, and the Germans still think that they 
are in a peacekeeping mission, but for those of you who have 
been following Kunduz, it is--it is really hard to argue that 
some of the districts in Kunduz actually have peace to keep.
    Dr. Snyder. General Eaton.
    General Eaton. NATO was established to conduct combined 
arms, high-intensity warfare. It was not designed--and 
everybody understood the rules. What we have asked NATO to do 
now--all the contributing nations--is to line up on the United 
States' rules of engagement. And the respective political 
environments in every country frustrate that. So NATO as 
monolith in the operations that we are trying to conduct in 
Afghanistan is simply not computing.
    Dr. Snyder. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you again all for being here and for waiting for us 
to come back. One of the comments that we hear often is that 
they, meaning the Iraqis or Afghanistan, have to want them--
this more than we do.
    What do you think are the indications for that if we go 
forward? What would you suggest is something that is a firm 
indicator that that bridge is being built?
    Dr. Fair. Corruption. Karzai has his own family members 
that are deeply involved, allegedly we have to say, in the 
counternarcotics trade--or in the narcotics business.
    So it seems very strange that we are putting so much money 
in counternarcotics effort and we know that to some extent, 
although one can debate to which extent that is, the narcotics 
are funding the Taliban which, in turn, are targeting our 
troops.
    So I think there is some very specific things that we can 
expect from Karzai--at a very least--at the very least, 
cleaning up some of the individuals that he knows personally, 
governors that he has appointed that have been involved in the 
narcotics racket.
    That would be one example of a very concrete step. So for 
example, when he pardoned five narcotics traffickers because of 
tenuous connections to his reelection campaign, that should 
actually be a pretty strong signal that he doesn't want it as 
badly as we do.
    That being said, at the district level, folks don't want 
the Taliban around. The problem is, as Dr. Strmecki noted, the 
Taliban have coercive power, and even if they do confer some 
benefit, and the high risk of confronting the Taliban and the 
lack of security for them provided by the state, why wouldn't 
they simply, you know, acquiesce to what the Taliban is up to?
    So what I would like to see is much more leadership coming 
out of Kabul to deal with issues like corruption, the deep 
involvement of Afghan officials at the national and sub-
national level in narcotics trafficking. These are important 
steps that they can take to show us that, in fact, they do care 
about providing a competent government and one that can provide 
safety for its citizens.
    Mrs. Davis. Thank you.
    Dr. Strmecki, if I could just--just in counter to that, I 
thought when you were talking about what we can do to work with 
President Karzai, it is--I think I picked up that you didn't 
necessarily see the kinds of actions that Dr. Fair mentioned as 
good leverage, that that is only, you know, kind of pummeling 
him but not necessarily trying to engage on a different level. 
Is that correct?
    Dr. Strmecki. Karzai is a difficult actor to play, because 
he has some good qualities and some very bad qualities.
    And in the time I spent in Afghanistan working with 
Ambassador Khalilzad, I saw that the ambassador was able to 
form a relationship where he could move Karzai to do things 
that Karzai saw as highly risky or potentially against his 
interest, but he did so in a way by creating confidence in 
Karzai that the United States was standing behind him and was 
working with him to manage those risks.
    Now, that was several years ago, and Karzai was essentially 
untethered and didn't have that kind of relationship with 
subsequent ambassadors and underperformed as a result.
    Karzai may have changed and that previous model may not be 
able to be resurrected, but I saw sufficient promise in that 
model that I would still test it today.
    Mrs. Davis. Dr. Khan.
    Dr. Khan. [Inaudible] that both Afghanistan and Pakistan--
but the question--talking about--Pakistan or Afghanistan is to 
fight for American national security--Pakistan and Afghanistan 
is to fight for a democratic Pakistan and Afghanistan which 
may--security.
    What is interesting is that because of our presence there, 
it has--there is so much anti-Americanism that even ordinary 
civilians and citizens who are not affected--for example, 
Pakistanis who live in Karachi, Pakistanis who live in the 
United States, in Europe--who are not directly affected by the 
Taliban and al Qaeda--have this strong desire to see the United 
States fail.
    And anti-Americanism--see the United States fail. They 
understate the threat to their own society from the extremists. 
And any place the extremists are operating you will find that 
there is general perception among people that there are certain 
benefits that these extremists can provide because the so-
called secular governments are all very corrupt.
    Hamid Karzai is very corrupt. He is like the mayor of 
Kabul. He has no leverage outside Kabul. He has no authority 
and legitimacy unless he is backed by the United States. And 
now Abdullah Abdullah has completely destroyed his legitimacy.
    For the next four years we are going to have somebody there 
as president who tried to rig the elections, and I don't think 
he is ever going to be able to redeem that loss of legitimacy.
    So across the Muslim world you will see this pattern of 
secular, pro-Western leaders who are corrupt engaging with 
Islamist who may be violent and very anti-West in their 
rhetoric, but when they are in charge they are less corrupt, 
and they are quick to dispense justice and manage things.
    If you are living in a village in--or if you are living in 
a small village in southern Afghanistan, you might find that 
the Taliban provide security as well as quick justice and 
solutions to your problems and the West does not. And the West 
is working with leaders who they do not like, who are either 
anti-Islamic or corrupt. And that is a challenge.
    So for us to be able to win the partnership of the 
population in Pakistan and Afghanistan is very difficult. It is 
further undermined by the death of civilians during the various 
counterterrorism operations that we conduct.
    Mrs. Davis. I would like to actually follow up--I don't 
know, Mr. Chairman--General Eaton, did you have--did you want 
to comment at all?
    General Eaton. Only that the military will provide a 
feedback loop on grading the leadership at every level, and 
that that will inform the President's decision on how long he 
is going to tolerate this.
    So the best feedback loop that you are going to get is out 
of General McChrystal's headquarters.
    Mrs. Davis. Thank you.
    I wanted to just follow up for a second, because part of, I 
think, the metrics that we think about and going back to the 
comment that the chairman made earlier about our opportunity to 
meet with actually women in Afghanistan who are very interested 
in nation-building--I mean, they are very interested in helping 
to build a civil society, and educate their children, and have 
health care and all the things that everybody else in the world 
wants.
    And it seems to me that--I mean, this is a tremendous 
tension between trying to work with some of those groups that 
you mentioned, which may, in fact, provide some of that 
security but yet have absolutely no interest in having half the 
population participate. How do we deal with that?
    Dr. Khan. Well, there is lot of things that are complicated 
there. For example--this--called Taliban in Pakistan. But for 
example, the group that was fighting in Swat has been fighting 
for what they call--since 1970s--that we now call them Taliban. 
This problem was separate from the Taliban.
    So it is important for us, if we are going to get in there 
to try to make social change and cultural change and engage 
with this, to really understand the terrain that we are 
operating in. And I think we still fully do not understand 
these groups because we tend to--to clump them together.
    I don't think that the Taliban in Afghanistan are the same 
as the Taliban in Pakistan. And even what they call----
    Mrs. Davis. Those fighting against the government----
    Dr. Khan. Yes.
    Mrs. Davis [continuing]. Essentially, right?
    Dr. Khan. But still, the groups which we call Taliban in 
Pakistan are very different groups with very different goals. 
Some want to establish Islamic state in Swat and some want to 
drive America out of Pakistan. Some want to punish the 
Pakistani government for aligning with the U.S. Some want to 
fight against India, so there are--different goals that we 
need.
    But to give one example, there are hundreds of thousands of 
Pakistanis, American citizens of Pakistani origin. There are 
also, I am sure, thousands of Afghanis who live--in the U.S. We 
have never mobilized these people to go back and do social 
work, this non-military work.
    They would have lot more credibility. Every time there is 
an earthquake in Pakistan, we have Pakistanis in our mosque 
donating thousands of dollars. And I ask them well, why don't 
you donate thousands of dollars--go there, make a difference.
    And if you can have educated Pakistani women who have lived 
in America, who are--in America, going back there and doing 
credible social work--I can tell you that if--a western-looking 
person running an non-governmental organization (NGO) in 
Pakistan, especially in an area where there are cultural--very 
tribal--someone who actually belongs to their tribe. And I 
think that is one thing that we have ignored.
    Dr. Fair. As a woman, I don't want to downplay this, but 
the lack of rights that women have in Afghanistan is a subset 
of a lack of rights that everyone enjoys.
    And I also have a big problem with this reduction of the 
problems that women face to that of the Taliban. The fact is 
women were liberated only in Kabul. What the Taliban did--they 
didn't invent this. They simply mobilized this from the 
societal base from which they themselves emerged.
    So simply having Karzai sitting there in Kabul doesn't make 
everything okay for women. So I mean, I kind of prefer sort of 
stepping back and looking at this as a problem of human rights 
writ large for the country, as opposed to making this a women's 
issue.
    I might also add, with the exception of those women that 
you are engaging, for the most part this discussion about 
women's rights in Afghanistan is a non-starter. It actually 
alienates some of our other partners that are otherwise 
interested in a much larger discourse on human rights in 
Afghanistan.
    So I think there is a peril in reducing this to another 
fake binary--if the Taliban are there, it sucks to be a woman. 
It sucks to be woman in Afghanistan, period.
    Dr. Khan. Period. I fully endorse Professor Fair's 
statement.
    Dr. Snyder. Sorry? All right. Did you want to respond----
    Mrs. Davis. I think my only response is I think--and it is 
really not so much women's rights or even human rights. I think 
it is having people at the table to be part of the solution. 
And I think that is what has not occurred.
    And part of the question is how do we--how do we facilitate 
that, how do we move that along, so that you don't have, you 
know, a woman in Afghanistan, for example, at the--in a 
ministry who has no power, really, with--within the ministry to 
exact any changes.
    And I think that is what we are--what people are searching 
for there.
    Dr. Fair. Do any of the ministers in any of the ministries 
have the ability to affect change? There is such a--dependency 
and I would argue the ones that do have the power are doing the 
wrong things in those ministries.
    Dr. Khan. I think you should read the letter written by 
Pakistani woman parliamentarian to Hillary Clinton. I don't 
know whether you saw that. It is an open letter.
    And it will tell you that even those empowered women there 
will respond probably very similarly, because they don't like 
this condescending attitude that--especially the empowered 
women that--okay, first you separate women's rights from 
everybody else's right, and it sucks to be [inaudible] Saudi 
Arabia, too, if you have--you know, if you want--right.
    So what happens is that we ignore these women who stand up 
for local rights, like the women who stood up against Karen 
Hughes in Turkey. We don't talk about them anymore. Or Muslim 
women who insist on wearing hijab in--either in France or in 
Turkey.
    So what happens is that we look hypocritical on this issue 
when we ignore men's rights and push women's rights, and then 
we push women's right only--who are willing to play ball on 
Western terms and not those who want to stand up for local 
interests.
    Dr. Snyder. I think that Members of Congress are responding 
to what they heard from women Afghan legislators. I don't think 
this should be perceived as American women in positions of 
power pushing something. I mean, they are reporting back what 
they heard from Afghan women.
    I appreciate your patience. I am going to ask one final 
question, if I might. My previous question was about the 
importance of having an unvarnished view of who the enemy is. I 
think we also need to have an unvarnished view of what 
attributes and strengths we have. And you all talked about 
resources, some of those issues.
    But I was struck, Dr. Khan--in one of your statements, ``In 
the age of unmanned drones, long-distance relationships are not 
a bad idea.'' I think that we need to be very careful, don't 
we, about thinking that somehow because we have the ability of 
flying drones that that can somehow substitute for human 
intelligence on the ground or feet on the ground?
    I was trying to--I was trying to think about something that 
would be comparable here, and I guess I go back to the early 
1990s when so many cities in the United States had problems 
with gangs in the streets, and none of us would have felt good 
to think, ``Oh, good news, they pulled all the police cars out, 
but we got police helicopters overhead at night. Don't you feel 
safe now?''
    I mean, I think we should be very careful about not--you 
know, maybe your premise is right, what you advocate that we 
do, but we shouldn't kid ourselves, should we, in thinking that 
we have some drones that we can fly and control--that that is a 
substitute for General McChrystal's tactical assessment?
    Dr. Khan. My bigger point there is to make America and its 
presence invisible, because I think that America's visible 
presence, aggressive military visible presence, is a major 
provocation. It upsets a lot of people. It generates a lot of 
support for the extremists.
    People are more willing to--you know, women are more 
willing to take off their [inaudible] and donate to al Qaeda in 
Pakistan because they have seen civilians die and their country 
is being occupied by a foreign army.
    We can talk about this in many ways, but a majority of 
Afghans and Pakistanis think of us as occupiers.
    Dr. Snyder. But I mean, I will take your premise as--I 
mean, I suspect that military commanders would love to be able 
to fight an invisible war. I don't think that is practical or 
possible.
    You may be able to do an action that would, you know, take 
out one outpost or one house with a missile attack or a drone 
and have an event occur that people really didn't know where it 
came from. But when you are talking about actually--you are--
you know, an----
    Dr. Khan. Well, I am talking only about----
    Dr. Snyder [continuing]. If the U.S. can make its war--I 
mean----
    Dr. Khan [continuing]. Against al Qaeda.
    Dr. Snyder [continuing]. I don't see--I don't foresee how 
you could conduct a war somehow invisibly, and we would say, 
``No, that wasn't us. Those last 27 attacks in the last three 
hours, that wasn't us.''
    Dr. Khan. Well, the war I am talking about is only against 
al Qaeda. And if you notice, my whole argument was that we--we 
support the Afghans if they want to stand up to the Taliban, 
because I don't see Taliban in the long run as--the Taliban 
were in charge of Afghanistan and--and Afghans did not stand up 
to them when the Taliban were controlling it.
    If bin Laden was not--in Afghanistan and 9/11 had not 
happened, maybe the Afghans would have been living with the 
Taliban even today.
    That is the point I am trying to stress, is that the 
Taliban--are very regional--very regional. And they are 
fighting the U.S. because the U.S. is in their region.
    Dr. Snyder. I am responding to this issue. I mean, we have 
heard that argument made that----
    Dr. Khan. Yes.
    Dr. Snyder [continuing]. That because we have the ability 
now technically to fly drones that----
    Dr. Khan. I think that that is the only way we can fight al 
Qaeda, by locating them and pointing them and destroying their 
capabilities.
    Dr. Snyder. Dr. Strmecki.
    Dr. Strmecki. I respectfully disagree on a number of 
points. I do not think that the Afghan people in the majority 
view us as occupiers. They see us as their indispensable 
partner to creating a normal country.
    I would hate for the United States to come to a point where 
the symbol of our presence in that region is a Hellfire missile 
fired from a Predator drone.
    And the correct approach to defeating these extremists is 
with the Afghans and with the Pakistanis to find a positive 
vision that we hope to achieve in collaboration with them. And 
a subset of that is the marginalization of the extremism and 
the defeat of violent extremists.
    So you talk to Afghans and--and at the village level and 
others--and their great aspiration is, ``We want to live in a 
normal country.'' So I would embrace that, and I would say, 
``The purpose for us being here is to help you build a normal 
country.''
    And one of the subsidiaries of that is to create the 
security forces that enable a normal life to exist. A parallel 
could exist in terms of what Pakistanis want.
    But I think defining that positive vision--and I think that 
relates also to what--what Congressperson Davis was saying--is, 
I think, the key.
    Dr. Khan. But what do Afghans mean when they say ``a normal 
country'' is a question we need to understand. What is a normal 
country, where women and--women live according to Islamic 
principles or they live according to Western principles?
    Dr. Snyder. Dr. Fair.
    Dr. Fair. I have a list of a whole lot of capabilities that 
we don't do well, and that I would argue that success, however 
defined in Afghanistan--we actually need to do better.
    You say it is broken. We have all heard the figure, be it 
80, 90, or 70 percent, of dollars that are allocated for 
Afghanistan come back here, so it truly is USAID. The layered 
contract approach--and it is not just USAID--almost all the 
national aid programs suffer from the same thing.
    A colleague of mine on the Senate Intelligence Committee 
opines that we don't have any linguists, which is amazing, and 
there are a number of reasons for that. Namely, we have the 
National Security Education Program that actually educates 
linguists, but they actually can't get cleared by the 
government agencies that need linguists.
    With respect to the civilian surge, we don't have a Team A. 
I don't know where the Team A civilians are actually going to 
be coming from.
    The international community, including the United States, 
has tolerated all sorts of malfeasance and corruption from 
Karzai and other ministries without consequences.
    The PRT model is deeply broken, for the reasons that I have 
already mentioned. The NATO partners, as we all know, also have 
a number of problems.
    And I am also concerned that over the last eight years we 
have actually focused too much on building Afghan national 
security forces. We had this pillared program of vertically 
integrated activities, and building the ANSF really got the 
bulk of the political and financial resources.
    So we are in a position of, for example, training police, 
but there is no functioning rule-of-law mechanism. So without a 
functioning district court, without a prison where you can 
remand individuals, we have built a security service. We 
actually haven't built a police service.
    I respectfully disagree on the drone issue. The drone issue 
is not because it is the best option----
    Dr. Snyder. Disagree with who?
    Dr. Fair. With virtually everyone that has talked about the 
drone issue. This is not the best option, but it is the least 
worse option, so the Pakistanis lack the capability and the 
will to deal with the characters that are operating in the 
Federally Administered Tribal Areas (FATA).
    There are actually multiple advantages of drones. Conceding 
that it is the--not the optimal option, it does disrupt the al 
Qaeda cells. It has driven people out of FATA and into the rest 
of Pakistan, where conceivably they could be arrested.
    Of course, the problem in FATA is there are no police. The 
paramilitary organization, the Frontier Corps, is deeply--how 
shall I put this?
    Dr. Snyder. I don't think anyone here is arguing that we 
should not be having that----
    Dr. Fair. Yes, so----
    Dr. Snyder [continuing]. Kind of effort in--to go after al 
Qaeda. But it was the general statement talking about long-
distance relationships as a principle is what I am getting at.
    Dr. Fair. Oh, yes, absolutely.
    Dr. Snyder. You could make a mistake by saying that drones 
are a substitute for--it would be a lot cheaper.
    Dr. Fair. No----
    Dr. Snyder. It was just--if a drone solves all your 
problems--but that won't work.
    Dr. Fair. There are, as I said, all these other 
capabilities we are simply lacking.
    Dr. Snyder. I think that was a good point.
    Dr. Fair. And so how do we win without fixing this laundry 
list of deficiencies?
    Dr. Snyder. Yes, I think those are very important points. 
Probably Secretary Gates has been the leading spokesman here 
the last three years or so about that.
    General Eaton, you get the last word.
    General Eaton. Thank you, Mr. Chairman. First, a total 
reliance on violence is Mr. Rumsfeld's approach to warfare, and 
we have seen what that left us. So the use of drone attacks in 
concert with ground forces, the cop-on-the-beat approach, is 
prudent.
    The presence of ground forces provides the human 
intelligence that we need to be able to prosecute the 
counterinsurgency operations that we need.
    The feedback that I am getting from soldiers who have 
served in theater is we are not toxic to the environment, that 
we provide a service--security--which is the first role of 
government, and that those who find life in a secure fashion in 
Afghanistan are appreciative of our soldiers.
    And finally, with respect to the civilian surge and some of 
Dr. Fair's comments on the PRT, there is a failure in this city 
on our ability to do what the Pentagon does by its nature.
    When you go to the Pentagon mission, they take all the 
assets available to the Pentagon, create a coordinated and 
integrated plan with a unity of command, and they are able to 
execute very efficiently.
    We are not able to do that with the rest of our 
departments, so there is no agency that is designed to take 
command of all the President's assets, all the executive branch 
assets, in an expeditionary approach so that you task the 
different departments to provide assets that they respond to an 
integrated plan that is thoroughly coordinated and deployable.
    That is something new since 11/9/89 that the Nation needs 
to be able to render influence, not just military influence, 
but to render American influence with everything that we can 
bring to bear.
    Dr. Snyder. I share your concerns. All right. And I think 
you stated that well.
    Thank you all. I apologize for the prolonged voting period, 
but we appreciate your time here today, appreciate your 
service.
    We are adjourned.
    [Whereupon, at 12:58 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            November 5, 2009
      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 5, 2009

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>


</pre></body></html>
